Case: 19-2468

DLD-177

Document: 16-1

Page: 1

Date Filed: 05/29/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2468

LAN TU TRINH,
Appellant
v.
CITIZEN BUSINESS BANKING; VANESSA M. BARBETTI

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(E.D. Pa. Civil Action No. 2:18-cv-01662)
District Judge: Honorable Wendy Beetlestone

Submitted on Appellees’ Motion for Summary Action
April 30, 2020
Before: RESTREPO, PORTER, and SCIRICA, Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the Eastern District of Pennsylvania and was submitted on appellees’ motion
for summary action on April 30, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 30, 2019, be and the same hereby is summarily affirmed. All of the above
in accordance with the opinion of this Court.
ATTEST:
s/Patricia S. Dodszuweit
Clerk
DATED: May 29, 2020

Case: 19-2468

Document: 15

Page: 1

Date Filed: 05/29/2020

NOT PRECEDENTIAL

DLD-177

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-2468

LAN TU TRINH,
Appellant
v.
CITIZEN BUSINESS BANKING; VANESSA M. BARBETTI

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(E.D. Pa. Civil Action No. 2:18-cv-01662)
District Judge: Honorable Wendy Beetlestone

Submitted on Appellees’ Motion for Summary Action
April 30, 2020
Before: RESTREPO, PORTER, and SCIRICA, Circuit Judges
(Opinion filed May 29, 2020)

OPINION*
PER CURIAM
Pro se appellant Lan Tu Trinh appeals from the District Court’s order dismissing
her claims for lack of subject matter jurisdiction. For the reasons that follow, we will
summarily affirm the District Court’s judgment.

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-2468

Document: 15

Page: 2

Date Filed: 05/29/2020

In 2018, Trinh filed a complaint in the District Court alleging that Citizens Bank
of Pennsylvania and its employee, Vanessa Barbetti, facilitated wiring $87,550 from her
business account without her authorization. At a hearing, Trinh made clear that she
sought an acknowledgement of wrongdoing and an apology from defendants, as the
amount wired from the account had been returned; Trinh did not seek economic damages.
Defendants moved for summary judgment and produced unopposed evidence that all
parties were residents of Pennsylvania. The District Court granted defendants’ motion,
concluding that it lacked subject matter jurisdiction over the action. Trinh timely
appealed, and appellees have moved for summary action. i
The District Court correctly determined that it lacked subject matter jurisdiction
over Trinh’s claims. See Kokkonen v. Guardian Life Ins. Co. of Am.. 511 U.S. 375, 377
(1994) (“Federal courts are courts of limited jurisdiction.”). It is apparent from Trinh’s
filings that her allegations do not form a basis for federal question jurisdiction. See 28
U.S.C. § 1331. There is also no basis for diversity jurisdiction, as the record evidence
indicates that all parties are citizens of Pennsylvania. See 28 U.S.C. § 1332(a)(1).
Accordingly, we grant the appellees’ motion and will summarily affirm the District
Court’s judgment.

1 We have jurisdiction over this appeal pursuant to 28 U.S.C. § 1291, and we exercise
plenary review over the District Court’s dismissal for lack of subject matter jurisdiction.
See Swiger v. Allegheny Energy, Inc., 540 F.3d 179, 180 (3d Cir. 2008). We may
summarily affirm a district court’s decision “on any basis supported by the record” if the
appeal fails to present a substantial question. See Murray v. Bledsoe. 650 F.3d 246, 247
(3d Cir. 2011) (per curiam).
2

Case 2:18-cv-01662-WB Document 25 Filed 05/29/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

LAN TU TRLNH,
Plaintiff,
v.

NO. 18-1662

CITIZEN BUSINESS BANKING AND
VANESSA M. BARBETTI,
Defendants.

filed
MAY 2 9 2Qt9

ORDER

Clerk
——-°ep. Clerk

AND NOW, this 29th day of May, 2019, upon consideration of Defendants’ Motion for
Summary Judgment (ECF No. 19), further briefing in support thereof (ECF No. 22), and
Plaintiff’s responses in opposition thereto (ECF Nos. 21,23), IT IS ORDERED that the Motion
is GRANTED and the case is DISMISSED FOR LACK OF SUBJECT MATTER
JURISDICTION.
The Clerk of Court is directed to CLOSE this case.
BY«IE COURT:

WENDY BEETLESTONE, J.

Case 2:18-cv-01662-WB Document 24 Filed 05/29/19 Page 1 of 3
* ?

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
CIVIL ACTION

LAN TU TRINH,
Plaintiff,
v.
CITIZEN BUSINESS BANKING AND
VANESSA M. BARBETTI,
Defendants.

NO. 18-1662

MEMORANDUM OPINION

FILED
MAY 29 2m
MTESARKMAN.cfe*
------flep. Clerk

Plaintiff Lan Tu Trinh brings suits against Defendants Citizen Business Banking and
■ Vanessa M. Barbetti for claims stemming from the withdrawal of funds from LT International
Beauty School, which Plaintiff owns. ECF No. 15. Defendants now move for summary
judgment, and assert, inter alia, that subject matter jurisdiction does not exist. Because the
federal courts are “courts of limited jurisdiction,” Exxon Mobil Corp. v. Allapattah Servs., Inc.,
.. 545 U.S. 546,552 (2005),“[i]t is fundamental that federal courts must have subject matter
jurisdiction before reaching the merits of a case,” GBForefront, LP. v. Forefront Mgmt. Grp.,
LLC, 888 F.3d 29,34 (3d Cir. 2018). Accordingly, before reaching the merits, the Court must
determine whether it has subject matter jurisdiction to hear this case.
Federal courts have subject matter jurisdiction over two types of cases: federal question
cases and diversity cases. Exxon Mobil, 545 U.S. at 552.
Federal question jurisdiction exists in “civil actions arising under the Constitution, laws,
or treaties of the United States.” 28 U.S.C. § 1331. To establish federal question jurisdiction,
“the party asserting jurisdiction must satisfy the ‘well-pleaded complaint rule,’ which mandates
that the grounds for jurisdiction be clear on the face of the pleading that initiates the case.
Goldman v. Citigroup Glob. Markets Inc., 834 F.3d 242,249 (3d Cir. 2016) (quoting Franchise

Case 2:18-cv-01662-WB Document 24 Filed 05/29/19 Page 2 of 3

Tax Bd. ofState of Cal v. Constr. Laborers Vacation Tr.for S. Cal., 463 U.S. 1,9-11 (1983)).
Here, Plaintiffs complaint asserts that Defendants improperly withdrew funds from her account
without her signature or authorization. She does not invoke any federal precept of law, nor is
any federal question apparent from the face of the complaint. Thus there is no basis to find
federal question jurisdiction.
Diversity jurisdiction exists in civil actions between citizens of different States, between
U.S. citizens and foreign citizens, or by foreign states against U.S. citizens where the amount in
controversy exceeds $75,000. 28U.S.C.at§ 1332. Complete diversity is required, meaning that
“every plaintiff must be of diverse state citizenship from every defendant.” In re Briscoe, 448
F.3d 201,215 (3dCir. 2006). A corporate defendant is deemed a citizen of its state of its
incorporation and die state where it has its principal place of business. 28 U.S.C. § 1332(c).
Where “diversity of citizenship [has] been adequately pleaded by the plaintiff, the defendant can
submit proof that, in fact, diversity is lacking.” GBForefront, 888 F.3d at 35. “The defendant
has the initial burden of production to raise a factual challenge," but “[o]nce a factual challenge
has been raised, the plaintiff then has the burden of proof to establish diversity jurisdiction by a
preponderance of the evidence.” Id.
Plaintiffs complaint lists her state of residency as Pennsylvania, gives a Massachusetts
address for Defendant Barbetd, and provides no address for Defendant Citizens Bank. In their
summary judgment motion, Defendants assert that, in fact, they are both residents of
Pennsylvania: Defendant Barbetti provided an affidavit stating that she is a resident of
Pennsylvania and has been for many years; Defendant Citizens Bank is incorporated in
Pennsylvania with its principal place of business in Pennsylvania. Plaintiff does not respond to
these jurisdictional assertions in her opposition to Defendants’ motion. Because Defendants

2

Case 2:18-cv-01662-WB Document 24 Filed 05/29/19 Page 3 of 3
*•« '

have provided evidence that all parties are residents of Pennsylvania, and because Plaintiff has
not provided any proof to rebut this assertion, Plaintiff has not met her burden of proof to
establish that diversity among the parties exists. Id.
In the absence federal question or diversity jurisdiction, this action must be dismissed for
lack of subject matter jurisdiction.

BY THE COURT:

May 29,2019

/

WENDY BEETLESTONE, J.

3

Case: 19-2468

Document: 25

Page: 1

Date Filed: 09/14/2020

UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

No. 19-2468

LAN TU TRINH,
Appellant
v.

CITIZEN BUSINESS BANKING;
VANESSA M. BARBETTI

D.C.No. 2-18-cv-01662

SUR PETITION FOR REHEARING

Before: SMITH, ChiefJudge, McKEE, CHAGARES, JORDAN, SHWARTZ,
RESTREPO, BIBAS, PORTER, MATEY and SCimCA,*Circuit Judges

The petition for rehearing filed by appellant in the above-entitled case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the

* Judge Scirica’s vote is limited to panel rehearing only.

C

Case: 19-2468

Document: 25

Page: 2

Date Filed: 09/14/2020

circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.

BY THE COURT,
s/ L. Felipe Restrepo
Circuit Judge
Date: September 14, 2020
Lmr/cc: Lan Tu Trinh
Joel M. Eads

Additional material
from this filing is
available in the
Clerk's Office.

